•'

USCA4 Appeal: 20-4116

Doc: 30

Filed: 01/07/2021

Pg:1of5

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-4116
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
MATHEW RYAN BYRD,
Defendant - Appellant.

Appeal from the United States District Court for the Southern District of West Virginia, at
Huntington. Robert C. Chambers, District Judge. (3:19-cr-00080-l)
Submitted: December 31, 2020

Decided: January 7, 2021

Before WILKINSON, MOTZ, and AGEE, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Patrick A. Mullin, THE LAW OFFICES OF PATRICK A. MULLIN, New York, New
York, for Appellant. Michael B. Stuart, United States Attorney, Stephanie S. Taylor,
Assistant United States Attorney, OFFICE OF THE UNITED STATES ATTORNEY,
Huntington, West Virginia, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

v

USCA4 Appeal: 20-4116

Doc: 30

Filed: 01/07/2021

Pg: 2 of 5

PER CURIAM:
Mathew Ryan Byrd appeals his conviction and sentence at the bottom of his
Guidelines range after pleading guilty to distribution of heroin in violation of 2,1 U.S.C.
§ 84Ua¥11. and possession of a firearm in furtherance of a drug trafficking crime, i.e.,
possession with intent to distribute heroin, in violation of 1? U,S..CL§ 924(cXl)(A)- On
appeal, he argues his counsel was ineffective in advising him to plead guilty to the firearm
count; the district court unreasonably denied his request for a downward variance; and it
abused its discretion in denying his motion for a presentence mental evaluation. We affirm.
Byrd first seeks to claim that his trial counsel was ineffective in advising him to
plead guilty to the firearm count. We will not consider a claim of ineffective assistance on
direct appeal unless the record conclusively shows that counsel was ineffective. United
States v. Campbell,

109.319 (4th Cir. 2020). Because the record in this case does

not conclusively show ineffective assistance, we decline to consider this claim. ...
Byrd next challenges the district court’s denial of his request for a below-Guidelines
range sentence. “This Court ‘review[s] all sentences—whether inside, just outside, or
significantly outside the Guidelines range—under a deferential abuse-of-discretion
standard.”’ United States v. Torres-Reyes, 952 F.3d 147.151 (4th Cir. 2020) (quoting Gall
v, United States, 552 TTS, IS. 41 (2007)). “First, we ‘ensure that the district court
committed no significant procedural error, such as failing to calculate (or improperly
calculating) the Guidelines range, treating the Guidelines as mandatory, failing to consider
the § 3553(a) factors, selecting a sentence based on clearly erroneous facts, or failing to
adequately explain the chosen sentence—including an explanation for any deviation from
2

1:.

*

USCA4 Appeal: 20-4116

Doc: 30

Filed: 01/07/2021

Pg: 3 of 5

the Guidelines range.’” United States v. Fowler, 948 F.3d 663.668 (4th Cir. 2020) (quoting
Gall, 552 ILS. at 5.1V “If the Court ‘find[s] no significant procedural error, [it] then
considers] the substantive reasonableness of the sentence imposed.’” United States v.
Arbaugh, 951 F.3d 167. 172 (4th Cir. 2020) (citation omitted).
“As is well understood, to meet the procedural reasonableness standard, a district
court must conduct an individualized assessment of the facts and arguments presented and
impose an appropriate sentence, and it must explain the sentence chosen.” United States
v. Nance, 957 F.3d 204. 212 (4th Cir. 2020) (internal quotation marks and citations
omitted). “Specifically, a district court’s explanation should provide some indication []
that the court considered the § 3553(a) factors and applied them to the particular defendant,
and also that it considered a defendant’s nonfrivolous arguments for a lower.sentence.” Id.
at 212-13 (internal quotation marks and citations omitted). “Importantly, it is also well
established that our review of a district court’s sentencing explanation is not limited to the
court’s statements at the moment it imposes sentence,” but rather, this Court “look[s] at the
full context” of those statements when evaluating them. Id. at 213.
“When considering the substantive reasonableness of a prison term, we ‘examined
the totality of the circumstances to see whether the sentencing court abused its discretion
in concluding that the sentence it chose satisfied the standards set forth in § 3553(a).’”
Arbaugh, 951 F.3d at 176 (citation omitted); see also Gall, 552 U.S. at 59-60 (appellate
court must give “due deference” to a district court’s “reasoned and reasonable decision that
the § 3553(a) factors, on the whole, justified the sentence”). “Applying this standard, we
may ‘ reverse a sentence only if it is unreasonable, even if the sentence would not have been
3

USCA4 Appeal: 20-4116

Doc: 30

Filed: 01/07/2021

Pg: 5 of 5

Finally, Byrd challenges the district court’s denial of his motion for a presentence
mental evaluation. We review a district court’s failure to conduct a competency hearing
or evaluation for abuse of discretion. United States v. Torrez, 869 F.3d 291. 321 (4th Cir.
2017) (citing United States v. Mason, 52 F.3d 1286. 1289 (4th Cir. 1995)). At any time
prior to sentencing, a district court must conduct a competency hearing ‘“if there is
reasonable cause to believe that the defendant may presently be suffering from a mental
disease or defect rendering him mentally incompetent to the extent that he is unable to
understand the nature and consequences of the proceedings against him.’” Id. at 322
(quoting 18 O.S.C. § 4241 fall (other citation omitted). The district court may also order a
psychiatric or psychological examination of the defendant. 18 U.S.C. § 4241(13). Here,
Byrd did not claim incompetency but moved for an evaluation to aid sentencing. We have
reviewed the record and conclude the district court did not abuse its discretion.
Accordingly, we affirm the district court’s judgment...We dispense with oral
argument because the facts and legal contentions are adequately presented in the materials
before the court and argument would not aid the decisional process.
AFFIRMED

5

USCA4 Appeal: 20-4116

Doc: 35

Filed: 02/02/2021

Pg: 1 of 1

FILED: February 2, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-4116
(3:19-cr-00080-l)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.

MATHEW RYAN BYRD
Defendant - Appellant

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Wilkinson, Judge Motz, and
Judge Agee.
For the Court
/s/ Patricia S. Connor. Clerk

